FEBRUARY 21, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     MARS ATMOSPHERE AND VOLATILE EVOLUTION
               (MAVEN) PROJECT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-009 (ASSIGNMENT NO. A-12-014-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CDR          Critical Design Review
CRM          Continuous Risk Management
EVM          Earned Value Management
FY           Fiscal Year
GAO          Government Accountability Office
GRAIL        Gravity Recovery and Interior Laboratory
HEPS         High Efficiency Power Supply
JCL          Joint Cost and Schedule Confidence Level
KDP          Key Decision Point
MAVEN        Mars Atmosphere and Volatile Evolution
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
PDR          Preliminary Design Review
OIG          Office of Inspector General
SIR          System Integration Review
SRB          Standing Review Board
UFE          Unallocated Future Expenses


                                                        REPORT NO. IG-13-009
FEBRUARY 21, 2013




                                                                                           OVERVIEW

        MARS ATMOSPHERE AND VOLATILE EVOLUTION (MAVEN)
                           PROJECT

                                                                                             The Issue

  Selected by NASA in 2008, the Mars Atmosphere and Volatile Evolution (MAVEN)
  Project is scheduled to launch in November 2013 at an expected cost of $453 million.
  MAVEN will study how the loss of carbon dioxide, nitrogen dioxide, and water from the
  Martian atmosphere occurred over time, which will provide insight into the history of the
  Red Planet’s atmosphere, climate, and habitability. The Project represents the last
  mission undertaken as part of NASA’s Mars Scout Program, an Agency initiative that
  competitively selected relatively low-cost robotic missions to Mars that NASA
  discontinued in 2010.1

  In a September 2012 report, the NASA Office of Inspector General (OIG) identified a
  series of challenges that NASA managers face in meeting project cost, schedule, and
  performance goals for Agency projects.2 These project challenges – overly optimistic
  cost and schedule estimations, underestimating technical complexity, unstable funding,
  and limited development opportunities for program managers – hinder NASA’s ability to
  deliver projects on schedule and within cost. While Agency officials acknowledged that
  these long-standing challenges effect project success, they credit a number of new
  initiatives, including the use of probabilistic cost and schedule analysis, for helping more
  recent projects such as Juno and Gravity Recovery and Interior Laboratory (GRAIL)
  meet cost and schedule goals.3

  We initiated this audit to determine whether NASA is managing the MAVEN Project to
  successfully meet cost, schedule, and performance goals. Specifically, we examined
  whether MAVEN experienced similar challenges to those we identified in our September
  2012 report and the role that NASA’s recent acquisition and project management
  initiatives played in managing the Project. Details of the audit’s scope and methodology
  are in Appendix A.

  1
      Phoenix, launched in August 2007 and the only other Scout mission, successfully landed on Mars in May
      2008 and concluded its mission in November 2008. Each Scout project was required to cost less than
      $485 million.
  2
      NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
      September 27, 2012).
  3
      The Juno mission launched on August 5, 2011, is scheduled to arrive at Jupiter in July 2016 and will
      investigate the structure and history of the planet. GRAIL launched on September 10, 2011, and ended its
      mission of studying the Moon’s interior in December 2012.



REPORT NO. IG-13-009
                                                                                                         OVERVIEW



     Results

     MAVEN Project managers successfully addressed challenges that have hindered other
     NASA projects by using a disciplined management approach to achieve cost, schedule,
     and performance goals. Specifically, the mission’s experienced Project manager
     demonstrated strong leadership and project management skills while proactively
     recruiting experienced staff. In addition, the Project management team closely followed
     NASA acquisition policies, which resulted in effective oversight and administration
     of the Project to date. Moreover, development efforts were aided by the use of heritage
     technology that had flown successfully on previous NASA missions, and the Project was
     not subjected to the type of funding instability that has plagued other NASA projects.4
     In addition, the team effectively utilized newly implemented management initiatives and
     tools to facilitate timely and well-informed decisions, used innovative contract
     management to motivate contractor performance, and developed comprehensive risk
     mitigation plans. Collectively, these efforts have controlled Project costs, proactively
     managed risk, and established adequate reserve levels that favorably position the Project
     to mitigate any remaining programmatic challenges and meet the planned November
     2013 launch date.

     MAVEN Managers Successfully Mitigated Common Project
       Management Challenges

     In our September 2012 report, we identified four factors that appear to present the
     greatest challenges to successful project outcomes at NASA – NASA’s culture of
     optimism, underestimating technical complexity, funding instability, and limited
     opportunities for project managers’ development. We found that MAVEN managers
     have been able to overcome these challenges by forming a strong and experienced
     leadership team; emphasizing the use of heritage technologies that did not require
     significant modifications; receiving a stable funding profile; and effectively using sound
     project management methodologies, tools, and contracting initiatives.

     Experienced Leadership. We found that the Project manager had approximately
     17 years of experience and had been associated with MAVEN since the Project’s
     inception in 2006. In addition, the Project manager and principle investigator selected
     teams of experienced scientists, subsystem project managers, instrument developers,
     integrators, and senior leaders from each of the organizations involved in the mission.
     According to the Project manager, he encouraged team members to maintain open
     communication to ensure that all parties understood the cost, schedule, and performance
     goals and were accountable for working to achieve those goals.

     Use of Heritage Technology. We found that Project managers emphasized the use of
     heritage, flight-qualified hardware and software flown on eight previous interplanetary
     4
         Heritage technologies are hardware, software, and systems developed for previous projects that are
         adapted for use on other projects.



ii                                                                                        REPORT NO. IG-13-009
OVERVIEW



  missions, thereby avoiding the cost and schedule challenges often associated with
  developing new technologies. In addition, Project management’s adherence to original
  specifications meant that in most cases the heritage technologies required minimal
  modification to meet the form, fit, and function requirements of the MAVEN mission.
  Management’s technical implementation plan also incorporated substantial technical
  requirements in excess of minimum Project specification margins, did not rely on any
  new technology development, and included targeted descope options, all of which were
  key factors that contributed to MAVEN’s positive status.

  Stable Funding. Nearly 75 percent of the individuals we interviewed for our September
  2012 audit reported that funding instability was among the most significant challenges to
  project management at NASA. Funding instability includes situations in which a project
  receives less money than planned or funds are disbursed on a schedule different from
  planned and can be the result of external decisions made by the President and Congress
  or internal decisions made by Agency officials. This instability can result in inefficient
  management practices that contribute to poor cost, schedule, and performance outcomes.

  NASA’s Project Management Handbook describes a typical project funding profile as
  one that ramps up quickly in the early phases of a project, then peaks during final design,
  fabrication, and assembly.5 We reviewed MAVEN’s funding profile and found that it
  matched the profile described and the Project was not subjected to the type of funding
  instability that has hampered development efforts on other projects. In fact, MAVEN
  consistently received funding at or above the requested amounts throughout its life cycle,
  unlike many other NASA projects.

  MAVEN Effectively Used Project Management Methodologies,
    Tools, and Contracting Initiatives

  MAVEN’s cost, schedule, and technical performance are currently on target with original
  planning estimates largely because project managers adhered to NASA’s project
  management policies and successfully implemented initiatives that facilitated timely and
  well-informed decision making.6 Specifically, Project managers used independent
  reviews to evaluate their overall project plan, probabilistic cost and schedule estimations
  to confirm budget adequacy, an innovative contract management technique to motivate
  contractor performance, and a comprehensive risk mitigation plan to meet cost, schedule,
  and performance goals.

  Standing Review Board. NASA policy provides overall direction for how project
  managers should execute their responsibilities. The policy outlines NASA’s management
  structure; the life cycle for spaceflight projects; the roles and responsibilities of and
  relationships between team members; and management requirements by life-cycle phase.

  5
      “NPR7120.5, NASA Space Flight Program and Project Management Handbook,” February 4, 2010.
  6
      NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project Management
      Requirements,” August 14, 2012.



REPORT NO. IG-13-009                                                                                  iii
                                                                                                            OVERVIEW



     The policy also requires an independent review of the project at appropriate milestones.
     One element of this independent review process is the Standing Review Board (SRB), a
     group composed of experts from outside the project whose job is to provide an
     independent assessment of the project as it advances through its key decision points.

     We found that MAVEN management actively engaged the SRB throughout the Project’s
     life cycle and that the SRB reviewed risks in mission complexity, Government furnished
     equipment, waiver approval, launch vehicle selection, system engineering staffing, power
     system development, and assembly, test, and launch operations. The SRB determined
     that MAVEN had an excellent team in place, effective communication, minor technical
     risks, and an achievable schedule. The independent assessment team also agreed to
     within one percent of the Project manager’s cost and schedule confidence estimates.
     Collectively, the positive findings of the SRB contributed toward NASA’s decision to
     confirm MAVEN for entry into the Final Design and Fabrication phase.

     Joint Cost and Schedule Confidence Level. MAVEN Project managers confirmed the
     adequacy of the Project’s funding through an analysis produced by a Joint Cost and
     Schedule Confidence (JCL) review.7 A relatively new initiative, the JCL is a cost
     estimating methodology that establishes the probability of a project being completed at its
     estimated cost and on schedule. NASA has cited the probabilistic analysis with helping
     projects such as Juno and GRAIL meet their cost and schedule goals. Since August
     2010, the annual JCL for MAVEN has indicated that the Project has more than a
     90 percent probability of launching within the budget provided and on the planned
     schedule.

     Earned Value Management. Project managers also effectively used earned value
     management (EVM), a tool for measuring and assessing project cost, schedule, and
     technical performance.8 For example, the Project’s cumulative schedule performance
     indicated that work activities were slightly behind schedule due to unanticipated
     developmental issues with two of its three instrument suites – the Neutral Gas and Ion
     Mass Spectrometer (Mass Spectrometer) and the Particles and Fields Package. In
     addition, some spacecraft work was delayed while awaiting the transition of personnel
     from the Juno and GRAIL missions to MAVEN. However, EVM data showed that the
     delayed spacecraft work resulted in a cumulative cost underrun. Managers subsequently
     applied these funds to obtain the additional work hours needed to get the Project back on
     schedule after Juno and GRAIL launched in August and September 2011, respectively.
     Consequently, managers maintained schedule progress to preserve the required delivery

     7
         As described in NPR 7120.5E, “NASA Space Flight Program and Project Management Requirements,”
         August 14, 2012, the JCL analysis combines a project’s cost, schedule, and risk profiles and produces the
         probability that cost will be equal to or less than the targeted cost, and schedule will be equal to or less
         than the targeted schedule date. The JCL review is intended to help inform management of the likelihood
         of a project’s success. NASA requires that a JCL be performed for all projects with estimated life-cycle
         costs greater than $250 million.
     8
         EVM is an integrated management control system for assessing a project’s technical progress. Used
         correctly, EVM can help provide project management with objective, accurate, and timely data to support
         effective decision making.



iv                                                                                           REPORT NO. IG-13-009
OVERVIEW



  margins while maintaining adequate schedule margins to meet any additional unexpected
  delays.

  Innovative Approaches to Contract Management. We found that MAVEN managers
  used innovative contract management practices to motivate contractor performance in
  support of cost, schedule, and performance goals, particularly through use of “risk pool”
  funds to control costs. A risk pool is a segment of funds that MAVEN Project
  management treats both as unallocated future expenses (UFE) and as part of the Project’s
  budget.9 The Project Manager allocates these funds to address issues that would likely
  benefit from proactive risk mitigation activities to reduce future technical or schedule
  risk, such as addressing an unexpected and uncharacteristic test issue that was beyond the
  scope of the testing contemplated when the contract was negotiated. Identifying specific
  costs likely to arise at the inception of the Project enabled the contractor to submit an
  aggressively priced proposal without exposing the Project to cost overruns as a result of
  high-probability risks.

  Risk Management. MAVEN management’s proactive risk mitigation strategies have
  also helped the Project achieve cost, schedule, and technical goals. We found that
  MAVEN management analyzed, controlled, and communicated mission-level Project
  risks in accordance with applicable criteria and guidelines. MAVEN management used a
  consistent, structured, and rigorous methodology for continuous management of the
  Project’s risks. Specifically, we found that the MAVEN Continuous Risk Management
  (CRM) process had sufficient process controls to effectively manage risks.10 By properly
  applying Agency risk management processes and sound risk mitigation strategies,
  MAVEN Project management has been able to address Project risks in a timely manner.

  We reviewed the Project’s risk management database and found that all 97 mission-level
  risks were actively managed in accordance with NASA risk management requirements.
  Additionally, we found that Project managers are aggressively addressing single-point
  failure risks – components or elements that if a failure occurs, the mission fails or is
  significantly degraded. For example, risk mitigation for the High Efficiency Power
  Supply (HEPS) Card – the spacecraft’s power supply – included incorporation of
  technical requirements in excess of minimum Project specifications, rigorous inspections
  and testing on a secondary card obtained from the Juno Project, and additional testing of
  the HEPS primary and secondary flight cards.




  9
      The term unallocated future expense or UFE replaces the now obsolete term previously referred to as
       “cost reserves.” A UFE is the portion of estimated cost required to meet a specified confidence level that
       cannot yet be allocated to the specific project Work Breakdown Structure sub-elements because the
       estimate includes probabilistic risks and specific needs that are not known until these risks are realized.
  10
       CRM is a systematic and iterative process that identifies, analyzes, plans, tracks, controls, communicates,
       and documents risks associated with implementation of designs, plans, and processes.



REPORT NO. IG-13-009                                                                                                 v
                                                                                                   OVERVIEW



     MAVEN is Well-Positioned to Address Remaining Risks

     The MAVEN Project is currently moving toward its systems integration and testing
     phase, which includes utilization of hardware, software, procedures, and facilities
     required to perform the integration and testing of the Project’s systems, payloads,
     spacecraft, launch vehicle and services, and mission operations. Integration of project
     components and subsystems requires assembly of hardware and software elements into
     operational assemblies or systems. Due to the complexity of space systems, integration
     and testing may produce unexpected results that could require further analysis, testing, or
     design changes.

     However, we found that the Project was carrying a higher level of cost and schedule
     reserves into the final design and fabrication phase of Project development than goals
     stated in Goddard Space Flight Center requirements.11 MAVEN Project management has
     been able to maintain this higher level of cost reserve due to cost underruns achieved
     early in the Project life cycle. Against the cost estimate to complete Project development,
     as of November 2012, MAVEN management held approximately 32 percent of costs as
     UFEs and 2.6 months of schedule margin.

     Although risks remain to MAVEN’s cost, schedule, and technical performance, in our
     judgment Project reserves were adequate to mitigate against most unforeseen expenses
     and events. Project management’s experienced leadership team, use of heritage
     technologies, implementation of sound project management practices (including the use
     of JCL), innovative contract management practices, and aggressive risk mitigation
     strategies have enabled MAVEN to overcome common NASA project management
     challenges and minimize cost increases and schedule delays.

     Management Action

     Although we made no specific recommendations for the MAVEN Project management
     team, we encouraged the Associate Administrators for NASA’s Mission Directorates and
     the Agency’s Chief Engineer to analyze MAVEN’s project management successes,
     identify what tools have helped project management minimize common project
     development issues, and apply these lessons to other NASA development projects.

     The Associate Administrator for the Science Mission Directorate agreed and stated that
     post-launch the Directorate would work with the Chief Engineer to capture the lessons
     learned and share them using NASA’s knowledge sharing tools, including an ASK
     Magazine article and a Chief Knowledge Officer case study. Management’s full
     response is reprinted in Appendix B.



     11
          Goddard Procedural Requirements 7120.7, “Schedule Margins and Budget Reserves to be Used In
          Planning Flight Projects and In Tracking Their Performance,” May 4, 2008.



vi                                                                                   REPORT NO. IG-13-009
FEBRUARY 21, 2013




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

  RESULTS
      Sound Project Management Practices Puts MAVEN on Track
        to Meet Mission Goals _______________________________ 9

  APPENDIX A
      Scope and Methodology _______________________________ 23
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 24

  APPENDIX B
      Management Comments ______________________________ 25

  APPENDIX C
      Report Distribution ___________________________________ 27




REPORT NO. IG-13-009
FEBRUARY 21, 2013




                                                                                     INTRODUCTION


Background

  NASA selected the Mars Atmosphere and Volatile Evolution (MAVEN) Project in
  September 2008 as one project in the Mars Scout Program, an Agency initiative that
  competitively selected relatively low-cost robotic missions to Mars.12 NASA officials
  selected MAVEN as having the highest science value and the lowest implementation risk.
  Once launched, the Project will explore the Martian upper atmosphere and ionosphere
  and their interactions with the Sun and solar wind (see Figure 1).13 Scientists will use the
  data MAVEN collects to study how the loss of volatile compounds such as carbon
  dioxide, nitrogen
  dioxide, and water          Figure 1. Artist’s concept of MAVEN in orbit of Mars.
  from the Martian
  atmosphere has
  occurred over time,
  which will give them
  insight into the history
  of the Planet’s
  atmosphere, climate,
  and habitability.

  MAVEN will obtain
  measurements the
  National Academy of         Source: NASA
  Sciences listed as a
  high priority in its
  2003 Decadal Survey on planetary exploration.14 Specifically, the scientific mission
  objectives are to: (1) determine how the loss of elements from the Mars atmosphere to
  space has affected the Martian climate over time; (2) determine the current state of the
  upper atmosphere and interactions with solar wind; (3) determine the current rates of
  escape of Mars’ atmospheric elements to space and the processes controlling them; and

  12
       This announcement solicited proposals for space flight science investigations that could include remote
       observations from Mars-orbiting spacecraft; missions that deploy aerial or landed systems to study the
       Martian atmosphere, surface, interior, geo-potential fields, and/or deep subsurface; and sample return
       missions. Projects in the Mars Scout Program, which NASA cancelled in 2010, had a cost cap of
       $485 million.
  13
       Solar wind is the stream of charged particles (protons, electrons, and heavier ionized atoms) emanating
       from the Sun in all directions at very high speeds.
  14
       National Academy of Sciences, “New Frontiers in the Solar System: An Integrated Exploration Strategy
       2003-2013,” 2003. The Survey placed heavy emphasis on Mars exploration including a mission to study
       the upper atmosphere of Mars.



REPORT NO. IG-13-009                                                                                             1
                                                                                                     INTRODUCTION



    (4) determine the ratios of stable isotopes that will tell Mars’ history of loss of these
    atmospheric elements over time.15

    The MAVEN mission is led by a principal investigator, who is located at the University
    of Colorado and has responsibility and accountability to the Mars Program Office at the
    Jet Propulsion Laboratory (JPL) and the Mars Exploration Program at NASA
    Headquarters for successful mission execution. The principal investigator delegates day-
    to-day development and operational decision-making authority to a project manager who
    is located at Goddard Space Flight Center (Goddard).

    NASA’s Project Life Cycle. NASA policy provides overall direction for how project
    managers should execute their responsibilities, including the life cycle for spaceflight
    projects; roles and responsibilities of and the interrelationships between project team
    members; and management requirements for each life-cycle phase.16 NASA has also
    developed a handbook to aid project managers in implementing these high-level
    requirements.17 The handbook provides information on best practices to assist managers
    with problem solving and risk management in taking a project from concept and design to
    development and production.

    As shown in Figure 2, NASA divides the life cycle of its spaceflight projects into two
    major phases – formulation and implementation – which are further subdivided into
    Phases A through F. Phases A and B consist of project formulation and C through F
    project implementation. This structure allows managers to assess the progress of their
    projects at key decision points (KDPs) in the process.18 Generally speaking, projects that
    stay within the parameters of their plans and other governing agreements proceed to the
    next phase. Those that deviate significantly from these plans and agreements undergo a
    Termination Review that can lead to project cancellation.




    15
         An isotope is two or more varieties of the same chemical element. Isotopes have different masses
         because they have different numbers of neutrons, thus they have different physical and chemical
         properties. Stable isotopes are chemical isotopes that are not radioactive, meaning they do not decay
         spontaneously.
    16
         NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project
         Management Requirements,” August 14, 2012.
    17
         “NPR 7120.5, NASA Space Flight Program and Project Management Handbook,” February 4, 2010.
    18
         A KDP is the point in time when the Decision Authority – the responsible official who provides
         approval – makes a decision on the readiness of the project to progress to the next life-cycle phase.
         KDPs serve as checkpoints or gates through which projects must pass.



2                                                                                           REPORT NO. IG-13-009
   INTRODUCTION



                                        Figure 2. NASA Life-Cycle Phases


                                                                                                                   End of
             Formulation                     Approval                        Implementation
                                                                                                                   Mission
                                                                            Phase D:
                             Phase B:
  Pre-        Phase A:                                        Phase C:       System        Phase E:
                            Preliminary      Proceed to                                                 Phase F:
Phase A:     Concept and                                        Final       Assembly,     Operations                Mission
                            Design and     Implementation                                                Close-
Concept      Technology                                      Design and    Integration,       and                  Concluded
                            Technology         Phase                                                      out
 Studies     Development                                     Fabrication    Test, and     Sustainment
                            Completion
                                                                             Launch


                                  Preliminary Key              Critical
                                  Design      Decision          Design
                                  Review      Point C           Review
                                  (PDR)       (KDP C)          (CDR)


       During formulation Phases A (Concept and Technology Development) and B
       (Preliminary Design and Technology Completion), project managers develop and define
       requirements, cost and schedule projections, acquisition strategy, project design, and
       complete development of mission-critical technology. Projects are required to
       demonstrate evidence of technology maturity and document the information in
       technology readiness assessment reports. Project managers must also establish and be
       accountable for compliance with the terms of a management agreement that defines the
       parameters and authorities over which the project manager has control.

       The formulation phase ends with a preliminary design review (PDR), which demonstrates
       whether the project’s preliminary design meets all system requirements with acceptable
       risk and within cost and schedule constraints. The PDR also establishes the basis for
       proceeding with detailed design of the project. At the PDR, project managers are
       required to present full baseline costs and schedules, as well as risk assessments,
       management systems, and performance metrics. In addition, a Standing Review Board
       (SRB) conducts an independent assessment of the project’s readiness to proceed to
       implementation.19 The formulation phase culminates in management approval to proceed
       to the next phase, which requires passage through KDP C where an assessment of the
       preliminary design and a determination of whether the project is sufficiently mature to
       proceed to Phase C is made. In addition, cost and schedule baselines are established as
       part of the KDP C review process, against which the project is thereafter measured.

       During Phase C, project managers prepare their final design, fabricate test units that
       resemble the actual hardware, and test those components. Subsequently, a second design
       review called the critical design review (CDR) is held to demonstrate whether the design
       19
            An SRB is composed of independent experts who provide assessments of the project’s technical and
            programmatic approach, risk posture, and progress against the project baseline and offer
            recommendations to improve performance or reduce risk.



    REPORT NO. IG-13-009                                                                                            3
                                                                                                         INTRODUCTION



               is sufficiently mature to proceed to full-scale fabrication, assembly, integration, and
               testing and whether the technical effort is on track to meet performance requirements
               within identified cost and schedule constraints. After CDR, a system integration review
               takes place to assess the readiness of the project to start flight system assembly, test, and
               launch operations. Depending on the results of that review, the project may be approved
               to continue into Phase D, which includes system assembly, integration, test, and launch
               activities.

               MAVEN Life Cycle and Components. As shown in Figure 3, NASA selected the
               MAVEN Project for competitive formulation development in early 2007 and for flight
               development in September 2008. Due to planetary alignment, the optimal launch
               window for a mission to Mars occurs every 26 months. MAVEN’s 20-day launch
               window extends from November 18 through December 7, 2013. Assuming launch occurs
               within this window, the spacecraft should enter orbit around the Red Planet in late
               September 2014 and collect data for at least one year.

                                         Figure 3. MAVEN Timeline (not to scale)

                               July 2010
    Early 2007            Preliminary Design
Project Selected for            Review        July 2011                                    November 2013           Fall 2015
Competitive Phase A                         Critical Design                                   Launch             End of Mission
                                                Review



                                                             Development
                 Formulation                                                                               Operations
                                          (Final Design, Fabrication, Integration and Testing)
            Early 2006 – July 2010                                                                       Fall 2013 – 2016
                                                       Summer 2010 – Fall 2013



       September 2008             October 2010                      August 2012
       MAVEN Selected                                                                                Fall 2014
                                    Mission                   Assembly, Test, and Launch
        for Formulation                                              Operations            Entry into Mars Atmosphere
                                  Confirmation



               NASA capped all projects in the Mars Scout Program at a maximum of $485 million.
               NASA limited MAVEN to a life-cycle cost of $452.9 million for its design, development,
               and operation. NASA estimated that the launch services costs would run an additional
               $187 million. These costs include the Atlas V 401 rocket built by United Launch
               Alliance, payload processing, launch vehicle integration, mission unique launch-site
               ground support, and tracking, data, and telemetry services. MAVEN will launch from
               Complex 41 at Cape Canaveral Air Force Station in Florida.




           4                                                                                     REPORT NO. IG-13-009
INTRODUCTION



  MAVEN will carry three instrument suites:

         The Neutral Gas and Ion Mass Spectrometer (Mass Spectrometer) will measure the
         composition of Mars’ atmosphere. Goddard personnel are building the Mass
         Spectrometer.

         The Remote Sensing Package (Remote Package) will determine characteristics of the
         planet’s upper atmosphere. The University of Colorado’s Laboratory for
         Atmospheric and Space Physics is building the Remote Package.

         The Particles and Fields Package (Particles Package) consists of six instruments
         designed to measure properties of Mars’ upper atmosphere, solar wind and solar
         energetic particles, magnetic fields, and solar extreme ultraviolet radiation. The
         University of California at Berkeley Space Sciences Laboratory is building the
         Particles Package, with support from Goddard and the Laboratory for Atmospheric
         and Space Physics.

  NASA awarded the Lockheed Martin Corporation (Lockheed Martin) a cost-plus-award-
  fee contract for development of the spacecraft, integration and test of the full observatory,
  and launch and mission operations. JPL will provide navigation support, use of the Deep
  Space Network, and telecommunications relay hardware and operations. The MAVEN
  Project Office at Goddard is responsible to the principal investigator for management of
  the MAVEN Project through all mission phases.

  NASA’s Project Management Challenges. As part of a September 2012 review that
  examined the major challenges facing NASA project managers, the NASA Office of
  Inspector General (OIG) interviewed 85 individuals involved in all levels of project
  development including current and former Administrators, Associate Administrators,
  Center Directors, and project managers and staff. Based on those interviews, the OIG
  identified four issues that present NASA with its greatest challenges to successfully meet
  cost, schedule, and performance goals:20

         Optimistic Agency Culture – A culture of optimism and a “can-do” spirit permeate all
         levels of the NASA workforce. While essential to overcoming the technological
         challenges inherent to many NASA projects, this culture can lead managers to
         overestimate their ability to overcome the risks to deliver projects within an
         established budget and timetable. For example, NASA project managers often
         underestimate the time and costs required to mature critical technologies or obtain
         and modify heritage technologies – hardware, software, and systems developed for
         previous projects that are adapted for use on new projects.

         Underestimating Technical Complexity – Project managers cited the technical
         complexity inherent in most NASA projects as a major challenge to meeting cost and

  20
       NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
       September 27, 2012) (Project Management Report).



REPORT NO. IG-13-009                                                                                5
                                                                                            INTRODUCTION



           schedule goals. Because NASA projects often involve new and unique technologies,
           managers lack historical data, cost models, lessons learned, and other information to
           help estimate the effort needed to develop the required technologies. In addition,
           NASA projects often involve combining several interdependent technologies and the
           resulting complexities can be difficult to predict.

           Funding Instability – More than 75 percent of the individuals we interviewed stated
           that funding instability – whether resulting from decisions made by the President and
           Congress or internally within NASA – was one of the most significant challenges to
           project management. For example, inadequate funding in the early phases of a
           project’s life cycle decreases managements’ ability to address key risks at project
           inception.

           Limited Project Manager Opportunities – Most project managers and senior officials
           we spoke with said that experience and on-the-job-training are key factors in a project
           manager’s ability to manage cost, schedule, and performance goals effectively.
           However, they expressed concern that NASA does not have a sufficient number of
           small missions to provide adequate training grounds for new project managers; that
           the Agency’s in-house capabilities have declined as it increasingly relies on
           contractors to support project development; and that NASA engineers spend most of
           their time overseeing contractor efforts rather than building spaceflight components
           and therefore have limited opportunities to gain practical “hands-on” experience.

    The OIG concluded that NASA leaders must temper the Agency’s culture of optimism by
    requiring realistic cost and schedule estimates, well-defined and stable requirements, and
    mature technologies early in project development. Moreover, they must ensure that
    funding is adequate and properly phased and that funding instability is identified as a risk
    and accounted for in risk mitigation strategies. Finally, they must be willing to take
    remedial action when these critical project management elements are not present.

    Joint Cost and Schedule Confidence Level. NASA recently implemented a cost-
    estimating policy requiring a new analysis method, known as the Joint Cost and Schedule
    Confidence Level (JCL), that analyzes the probabilities that a project will be completed at
    a certain cost and within a certain schedule. The JCL analysis is intended to aid in
    project management and cost and schedule estimating by enabling the Agency to evaluate
    more accurately whether projects have an executable plan as they proceed into
    development. JCL considers all cost and schedule elements, incorporates and quantifies
    potential risks, assesses the impacts of cost and schedule to date, and addresses available
    annual resources to arrive at development cost and schedule estimates associated with
    various confidence levels. The policy requires that projects be budgeted at a level
    supporting a 70 percent probability that the project will be completed at or lower than
    estimated costs and on or before the projected schedule.21


    21
         NASA Policy Directive (NPD) 1000.5A, “Policy for NASA Acquisition,” January 15, 2009.



6                                                                                   REPORT NO. IG-13-009
INTRODUCTION



Objectives

  We initiated this audit to determine whether NASA is managing the MAVEN Project to
  successfully meet cost, schedule, and performance goals. Specifically, we examined
  whether MAVEN experienced similar challenges to those we identified in our September
  2012 report and the role that NASA’s recent acquisition and project management
  initiatives played in managing the Project.

  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




REPORT NO. IG-13-009                                                                        7
RESULTS




                     SOUND PROJECT MANAGEMENT PRACTICES PUTS
                       MAVEN ON TRACK TO MEET MISSION GOALS

          To date, MAVEN Project managers have successfully overcome project
          management challenges that have hindered other NASA projects. Specifically, the
          Project manager is an experienced individual who demonstrated strong leadership
          and project management skills and recruited and adeptly utilized a cadre of
          experienced staff. In addition, the Project management team closely adhered to
          NASA acquisition policies, effectively utilized recently implemented management
          initiatives and tools to facilitate timely and well-informed decisions, used innovative
          contract management to motivate contractor performance, and developed
          comprehensive risk mitigation plans. Moreover, the Project has enjoyed a relatively
          stable funding stream and relied on heritage technologies that required minimal
          modification to meet mission requirements. Collectively, these factors helped the
          team control costs, proactively manage risk, and establish adequate reserve levels
          that should mitigate remaining programmatic risks and enable the team to meet the
          planned November 2013 launch date.


MAVEN Managers Successfully Mitigated Common Project
 Management Challenges

  Management Assembled an Experienced Team. Since its inception, the MAVEN
  Project has had only one Project manager. This individual joined NASA in 1987 and had
  approximately 11 years of project management experience when he became the MAVEN
  Project manager in 2006. The manager selected and organized teams of experienced
  scientists, subsystem project managers, instrument developers, integrators, and senior
  leaders from each contributing organization. The manager told us that the depth and
  length of the team’s experience was integral to successfully meeting the Project’s cost,
  schedule, and performance goals.

  According to the MAVEN Project manager, the MAVEN Project management team that
  includes the principal investigator and key representatives from Goddard, Lockheed
  Martin, the University of Colorado, the University of California at Berkeley, and JPL,
  established and have maintained open communications to ensure that all parties
  understand cost, schedule, and performance goals and are accountable for achieving those
  goals. The Project manager told us he laid the groundwork for open communication
  during concept and technology development and met weekly via teleconference
  throughout all phases of the Project. In addition, representatives from each participating
  organization attend monthly management reviews where they discuss technical, cost, and
  schedule updates. The Project management team also meets quarterly for status reviews




REPORT NO. IG-13-009                                                                                9
                                                                                                               RESULTS



     and for meetings with the Project Science Group to discuss science-related matters.22 At
     these meetings, the Project management team delivers status reports and hears the status
     reports and concerns of scientists and the other participants. According to the Project
     manager, this approach promotes a team response to issues and reinforces accountability
     among team members.

     In addition to the full Project management team, smaller teams and individuals work
     closely with their counterparts in working groups that NASA formed in the early stages
     of the Project (e.g., Systems Engineering Working Group, navigation team, launch
     vehicle, mission operations). Finally, the full Project management team has met at key
     points during the development phase to discuss lessons learned and use that information
     going forward.

     Use of Heritage Technologies Maximized to Increase Reliability and Limit Risk. We
     found that MAVEN management’s use of heritage technology that required minimal
     modifications to meet Project requirements helped avoid the cost and schedule challenges
     often experienced by projects that require development of new technologies or must
     substantially modify heritage technologies. For MAVEN, Project managers said they
     used heritage technology to the greatest extent possible and they planned for and used
     flight-qualified hardware and software that had flown on eight previous interplanetary
     missions. The MAVEN spacecraft incorporates structures, mechanisms, and avionics
     from previous Lockheed Martin interplanetary missions, including Juno and the Gravity
     Recovery and Interior Laboratory (GRAIL), which in turn evolved from the Mars
     Reconnaissance Orbiter and the Mars Global Surveyor.23 Similarly, MAVEN’s
     instruments are based on instruments used in previous planetary and Earth-orbiting
     missions, which provided significant cost and schedule risk reduction during
     development and environmental testing. MAVEN’s ground system, mission operations,
     Deep Space Network communications approach, and planetary protection
     implementation will also use existing infrastructure, processes, tools and personnel
     proven on previous and ongoing Mars missions.

     According to MAVEN Project management, the use of components with a history of
     successful operation in similar interplanetary environments has provided confidence in
     the Maven spacecraft design and increased reliability. Management also noted that
     although using heritage components does not eliminate the requirement for test-as-you-

     22
          The Project Science Group is chaired by the MAVEN principal investigator. Membership includes the
          project scientist, the MAVEN instrument leads, science working groups leads, co-investigators, and
          interdisciplinary scientists.
     23
          Juno launched in August 2011 on a mission to improve understanding of the solar system’s beginnings
          by revealing the origin and evolution of Jupiter. GRAIL launched in September 2011 with the primary
          objective of determining the structure of the lunar interior to advance understanding of the thermal
          evolution of the Moon and extend knowledge gained from the Moon to the other terrestrial planets.
          NASA’s Mars Reconnaissance Orbiter, launched in August 2005, is on a search for evidence that water
          existed on the surface of Mars for a long period of time. The NASA Mars Global Surveyor arrived at
          Mars in September 1997, and contributed numerous findings to the understanding of the planet over a
          9-year period, including signs of past, persistent water such as an ancient delta and currently active water
          features in the gullies of canyon walls.



10                                                                                            REPORT NO. IG-13-009
RESULTS



  fly environmental testing prior to launch, it increases the likelihood that such testing will
  be successful and therefore minimizes risk to cost and schedule.24

  MAVEN Project management also emphasized the importance of employing personnel
  with experience in building specific hardware, stating that for MAVEN the personnel
  building the spacecraft and instrument hardware have built the same or similar hardware
  on previous planetary missions. MAVEN managers noted that it is typically easier and
  more efficient to do something the second time around, while recognizing and
  incorporating the earlier lessons learned in the process.

  In our judgment, Project management’s use of flight-qualified hardware and software
  from previous interplanetary missions that required minimal modification played a
  critical role in setting the Project on the path to achieving cost, schedule, and
  performance goals.

  Stable Funding Contributed to Meeting Goals. Funding instability was the challenge
  most often cited by the individuals we interviewed for our Project Management Report.
  Funding instability can result in inefficient management practices that contribute to poor
  cost, schedule, and performance outcomes. For example, managers may be forced to
  invest time and effort to re-plan tasks to fit unexpected funding profiles, defer critical
  tasks to later phases of development, or descope or discontinue lower priority tasks to
  keep project costs within the revised budget profile. Inadequate funding in the early
  phases of a project decreases management’s ability to identify and address key risks.
  When planned funding does not materialize, project managers may delay development of
  critical technologies to a time when integration of those technologies may be more
  difficult or the cost of material and labor may be greater. Ultimately, management often
  decides to delay the project’s launch.

  NASA’s Project Management Handbook describes a typical project funding profile as
  one that ramps up quickly in the early phases of a project, then peaks during final design,
  fabrication, and assembly. In our September 2012 report, we illustrated how a lack of
  funding and changes to the expected funding profile early in a project’s development
  resulted in a 3-year launch delay of NASA’s Global Precipitation Measurement mission
  (see Table 1).




  24
       The principle of test-as-you-fly means that ground tests and simulations should accurately reflect the
       planned flight-mission profile.



REPORT NO. IG-13-009                                                                                            11
                                                                                                                                RESULTS



                                       Table 1: Global Precipitation Measurement Budget and Launch Date Changes
                                                                    (dollars in millions)
                                     Program              Fiscal Year (FY)
                                                                                   Final Approved
                                   Operating Plan         2004 President’s                              Estimated Launch Date
                                                                                     FY Funding
                                       Year              Budget Submission
                                     FY 2005                    $44.2                   $29.1                  June 2010
                                     FY 2006                    $99.3                   $24.7                December 2012
                                     FY 2007                   $155.9                   $28.8                  June 2013
                                     FY 2008                   $143.8                   $89.7                  June 2013
                                   FY 2005–2008
                                                                 $443.2                 $172.3            3-year launch delay
                                       Total

                             Conversely, as shown in Figure 4, we found that the MAVEN Project received funding
                             that closely matched the profile described in the Handbook and did not experience the
                             type of funding instabilities that have hampered development efforts on other NASA
                             projects.25 Furthermore, the Project received funding equal to or greater than the
                             requested amounts throughout its life cycle to date. This has contributed to the Project’s
                             cost, schedule, and technical performance aligning with original planning estimates.

                                                             Figure 4. MAVEN Funding Profile
                      $180

                      $160                                                                                         Typical Funding Profile
                                                                                                                 2013

                      $140                                                                                         2009 Budget Request to Congress
                                                                                                                   (includes launch services costs in
                                                                                                                 2009
                                                                                                                   2012 and 2013)
                      $120
Millions of Dollars




                                                                                                                   November 2010 Budget
                                                                                                                 2010
                      $100                                                                                         Projection

                                                                                                                   October 2012 Funding Profile
                                                                                                                 2011
                      $80                                                                                          and Projection

                      $60

                      $40

                      $20

                        $0
                             2007 - 2008      2009        2010        2011       2012        2013       2014        2015            2016        2017
                                                                          Fiscal Year



                             25
                                  FY 2009 budget request was for the yet unnamed Mars Scout 2013 mission that would later become
                                  MAVEN. November 2010 and October 2012 figures do not include launch services costs.



                        12                                                                                     REPORT NO. IG-13-009
RESULTS




MAVEN Effectively Used Project Management Methodologies,
 Tools, and Contracting Initiatives

  MAVEN Actively Engaged its Standing Review Board to Validate Project Plans.
  NASA policy requires an independent review of projects at specified milestones in its life
  cycle. One element of this independent review process is a Standing Review Board
  (SRB) staffed with individuals who come from areas outside of the project’s
  programmatic or institutional authorities. One of the functions of an SRB is to assess
  whether a Project’s preliminary designs meet all requirements within acceptable risk
  levels and applicable cost and schedule restraints.

  MAVEN underwent a comprehensive review by an SRB – including cost and schedule
  experts from the Independent Program Assessment Office, academia, industry,
  government and nonprofit organizations – in July 2010, at PDR.26 The SRB members
  attended selected MAVEN peer reviews and design reviews, and SRB cost and schedule
  analysts worked with the project to understand the cost, schedule, and risks of the Project.
  The SRB reviewed risks in mission complexity, government furnished equipment, waiver
  approval, launch vehicle selection, system engineering staffing, power system
  development, and assembly, test, and launch operations. The SRB concluded that the
  Project had an excellent team in place, effective communication among team members,
  minor technical risks, and an achievable schedule. In addition, the Board’s cost and
  schedule confidence estimates were within 1 percent of the Project manager’s estimates.
  Collectively, the positive findings of the SRB contributed to NASA’s decision to confirm
  MAVEN for entry into the Final Design and Fabrication phase.

  Joint Cost and Schedule Confidence Level Confirms Adequacy of MAVEN Budget.
  The adequacy of MAVEN’s funding was affirmed through development of a Joint Cost
  and Schedule Confidence Level (JCL), a relatively new analysis intended to assess the
  likelihood of a project’s success that NASA requires for all projects with estimated life-
  cycle costs greater than $250 million.27 The JCL combines a project’s cost, schedule, and
  risk profiles and analyzes the probability that its cost will be equal to or less than the
  planned cost, and its schedule will be on time or sooner than the targeted date. NASA
  management officials stated that the probabilistic analysis has helped projects such as
  Juno and GRAIL meet cost and schedule goals.



  26
       The primary role of NASA’s Independent Program Assessment Office is to facilitate an internal,
       independent review of the Agency's programs and projects at key decision points in the life cycle to
       support approval decisions by the Agency leadership and to ensure mission success.
  27
       NPR 7120.5E, “NASA Space Flight Program and Project Management Requirements,” August 14, 2012,
       states that budgets should reflect a 70 percent probability the project could be completed for that budget
       request or lower and on or before the baseline schedule. At a minimum, projects are to be funded at a
       level that is equivalent to a confidence level of 50 percent.



REPORT NO. IG-13-009                                                                                                13
                                                                                                              RESULTS



     According to NASA policy, projects are required to develop JCLs for the project’s life-
     cycle cost and schedule associated with the initial life-cycle baselines. We found that
     MAVEN’s JCL process began approximately 10 months before the Project’s October
     2010 confirmation, was open and transparent, and included data exchanges and process-
     check meetings with the Independent Program Assessment Office. Furthermore,
     although MAVEN was not required to maintain or provide a JCL after confirmation,
     MAVEN management continued to collaborate with the Independent Program
     Assessment Office to determine and update the JCL at each of the subsequent life-cycle
     reviews.

     MAVEN’s analysis showed an 87 percent JCL that MAVEN would launch on time and
     within the available budget. MAVEN’s SRB performed a parallel JCL assessment at the
     PDR prior to Mission Confirmation and repeated that exercise for MAVEN’s CDR in
     July 2011 and in each case the Project scored a JCL of at least 91 percent. The SRB also
     performed MAVEN’s System Integration Review (SIR) in June 2012 that also showed a
     JCL of 92 percent.28 The summary findings from the SRB assessments are illustrated in
     Table 2.

                     Table 2. Summary of Standing Review Board JCL Analysis
                                         Confidence       Confidence
                                          Level of          Level of         Joint
                                       Launching by        Launching     Cost/Schedule
             SRB        Assessment     End of Launch     within Budget     Confidence
          Assessments       Date          Window         Plus Reserves       Level
             PDR        August 2010         93%          More than 70%        91%
             CDR        August 2011         94%          More than 70%        96%
              SIR       August 2012         92%          More than 70%        92%


     The relatively high JCL compared with NASA’s requirement of 70 percent indicates an
     overall confidence from the SRB members that MAVEN will be completed on budget
     and on schedule. The fact that follow-up assessments have reflected similarly strong JCL
     levels also raises confidence that the results are an accurate reflection of the state of the
     Project.

     Earned Value Management Informs Decision Making. Project managers also used
     earned value management (EVM) to monitor cost and schedule metrics and make
     informed management decisions. EVM is an integrated management control system for
     assessing what a contractor or field activity is achieving with program dollars. EVM

     28
          NPR 7120.5E calls for an independent review of the project or program at specified life-cycle milestones.
          The CDR is held during the latter half of a project’s implementation phase and its purpose is to
          demonstrate the maturity of the design to support proceeding with full-scale fabrication, assembly,
          integration, and testing. The SIR review evaluates the readiness of the project to start flight system
          assembly, test, and launch operations and takes place after the CDR and just prior to the beginning of test
          and integration activities.



14                                                                                          REPORT NO. IG-13-009
RESULTS



  integrates technical, cost, and schedule information with risk management; allows
  objective assessment and quantification of program performance; and helps predict future
  contractor performance based on trends. EVM is also designed to provide management
  with objective, accurate, and timely data for effective decision making.

  We found that the MAVEN Project’s approach to using EVM was consistent with
  Goddard’s best practices for project implementation, was documented in the MAVEN
  EVM Plan, and met applicable NASA project management requirements. MAVEN
  Project managers used EVM to evaluate the progress of major components and the
  Project as a whole, including the observatory and the three instrument packages. Actual
  costs for MAVEN were imported from the Project’s financial system into the earned
  value cost engine and were used to develop the overall cost estimate. Variances between
  actual and estimated costs were captured in monthly variance narratives and submitted in
  monthly status reports. MAVEN’s Project manager said this EVM information enabled
  him to validate data from other sources and quantify the impact of schedule and cost
  variances.

  MAVEN management used EVM to make informed and timely cost and schedule
  decisions. For example, the Project’s cumulative schedule performance indicated that
  work activities were slightly behind schedule due to unanticipated developmental issues
  with two of its three instrument suites – the Mass Spectrometer and the Fields Package.
  In addition, some spacecraft work was delayed while the team waited for personnel from
  the Juno and GRAIL missions to transition to MAVEN. However, EVM showed that this
  delayed work resulted in a cumulative cost underrun. Managers used these funds to
  offset the schedule delays caused by the delay in receiving personnel from Juno and
  GRAIL. Consequently, managers successfully maintained schedule progress to preserve
  the required delivery margins, while maintaining adequate schedule margin to meet
  additional unexpected delays.

  MAVEN Project management also used EVM data to identify new project risks and
  adjust risk characterization based on the likelihood of any given risk occurring. For
  example, through continuous monitoring of EVM schedule performance and cost
  performance indices, Project management was able to identify a new cost and schedule
  risk for development of the Mass Spectrometer more than 6 months prior to it becoming
  an issue, and therefore were able to take action to reduce the impact of this delay.

  Use of “Risk Pool” Funds to Motivate Contractor Performance. One of the relatively
  new tools that contributed to MAVEN’s current success in limiting cost increases and
  schedule delays was the implementation of a contracting “risk pool.” A risk pool is a
  segment of funds in MAVEN’s cost-plus-award fee contract that Project management




REPORT NO. IG-13-009                                                                         15
                                                                                                              RESULTS



     treats both as unallocated future expenses (UFE) and as part of the Project’s budget.29,30
     The Project manager allocates these funds for issues that might reasonably occur within
     the course of the project where proactive risk mitigation activities are likely to reduce
     future technical or schedule risk. Examples might include development of spare cards
     not originally contemplated, or addressing an unexpected and uncharacteristic test issue
     that was beyond the scope of the testing contemplated when the contract was negotiated.
     Use of risk pool funds to resolve issues require prior Project manager approval and
     Project management must adjust the records to show the transfer of UFE to available
     funds under the contract. However, because these funds are already incorporated as part
     of the contract, they do not require a costly contract modification that would be required
     without a risk pool.

     Use of the risk pool approach provides the flexibility to maintain UFE at the Project
     level. With MAVEN, this approach allowed Lockheed Martin to aggressively price its
     contract for development and operations while limiting the risk of cost overruns due to
     “known unknowns.”31 During original contract negotiations, Lockheed Martin provided
     an optimistic base proposal for MAVEN systems acquisition and operations phases,
     which included an appendix of priced risk items evaluated as part of the final contract’s
     estimated cost. Risk items described in the appendix are specifically excluded from the
     base proposal and, to the extent that they or similar events occur, generally require
     allocation of UFE.

     Allocation of UFE from the risk pool for a particular issue that was not included in the
     original Project budget is at the discretion of the MAVEN Project manager. MAVEN
     Project personnel evaluate risks as they come to fruition and, if the risks are deemed
     appropriate for coverage by the risk pool, funds are allocated to Lockheed Martin
     accordingly.

     MAVEN is one of the first projects that NASA has implemented using the risk pool
     concept. According to the Deputy Project Manager/Resources and MAVEN Contracting
     Officer, use of the risk pool promoted good discussion between Project management and
     the contractor regarding risk mitigation relative to MAVEN's overarching objectives and
     streamlined the contract change process; thus, preserving critical schedule days. Based
     on the tool’s success in this Project, NASA officials said they plan to implement a similar




     29
          The term unallocated future expense or UFE replaces the now obsolete term previously referred to as
          “cost reserves.” A UFE is the portion of estimated cost required to meet a specified confidence level that
          cannot yet be allocated to the specific project Work Breakdown Structure sub-elements because the
          estimate includes probabilistic risks and specific needs that are not known until these risks are realized.
     30
          The risk pool approach was proposed and negotiated as part of Lockheed Martin's cost-plus-award-fee
          contract. NASA did not negotiate the risk pool approach for MAVEN's cost-reimbursement contracts
          with the universities and as such, unplanned risk mitigation activities are handled as contract changes.
     31
          The term “known unknowns” refers to an awareness that there is not a full accounting or understanding
          of all the issues that will arise during the course of a project.



16                                                                                           REPORT NO. IG-13-009
RESULTS



  risk pool strategy in upcoming contract negotiations for the Origins-Spectral
  Interpretation-Resource Identification-Security-Regolith Explorer mission.32

  MAVEN’s Implementation of Continuous Risk Management. NASA’s policy for
  risk management states that risk “is the potential for performance shortfalls, which may
  be realized in the future, with respect to achieving explicitly established and stated
  performance requirements.”33 These risks can be related to mission execution or safety,
  technical, cost, and schedule issues.

  NASA’s project managers are supposed to use Continuous Risk Management (CRM) as
  part of their overall risk mitigation process to manage project risks. The CRM process
  includes six steps:

            Identify: Identify contributors to risk (shortfalls in performance relative to
             baseline performance requirements);

            Analyze: Estimate the likelihood and consequence of the risk occurring through
             analysis, including uncertainty in the likelihood and consequence, and, as
             appropriate, estimate aggregate risks;

            Plan: Decide on risk disposition and handling, develop and execute mitigation
             plans, and decide what will be tracked;

            Track: Track observables relating to performance measures (e.g., technical
             performance data and scheduling variances);

            Control: Control risk by evaluating tracking data to verify effectiveness of
             mitigation plans, making adjustments to the plans as necessary, and executing
             control measures;

            Communicate and Document: Communicate and document the preceding
             activities throughout the process.

  MAVEN’s Risk Management Plan. The MAVEN Risk Management Plan describes the
  overall risk management process, procedures, and organizational roles for the Project.
  The plan states that as an integral part of Project management, CRM will assist the
  Project management team in performing risk-informed decision making, optimizing
  resource allocation, and coordinating trade studies against cost, schedule, and
  performance goals. The plan governs the management of risks that the Project may
  encounter during formulation, implementation, and operation, as well as how technical,
  cost, schedule, and other forms of risk will be determined, analyzed, managed, and

  32
       Origins-Spectral Interpretation-Resource Identification-Security-Regolith Explorer is a planned NASA
       mission to launch a spacecraft to an asteroid in September 2016. The mission will use a robotic arm to
       obtain samples from the asteroid that may better explain the solar system’s formation and how life began.
  33
       NPR 8000.4A, “Agency Risk Management Procedural Requirements,” December 16, 2008.



REPORT NO. IG-13-009                                                                                               17
                                                                                                           RESULTS



     communicated. The plan further establishes the Risk Management Module as the tool
     used to manage the Project’s CRM process.

     The MAVEN Project’s Risk Management Module is an automated risk management tool
     and risk information database developed by Goddard, maintained on an intranet, and
     customized by the Project to meet its specific requirements and track risk data gathered
     from a variety of project sources. All Project members have access to the Risk
     Management Module and are encouraged to use the tool to track risks at the Project,
     system, subsystem, or instrument level. Any Project member can create a record at any
     stage during the Project. Management of the Risk Management Module is the
     responsibility of the MAVEN Risk Management Coordinator.

     We found that MAVEN Project management used a consistent and structured
     methodology for systematically analyzing mission-level risks. Specifically, we found
     that managers implemented effective controls over the CRM process and all 97 risks
     recorded in the Project’s risk management tool were managed in accordance with
     applicable requirements. Included among these risks were “High Voltage Arcing in
     Instruments,” “Missed Launch Window in 2013,” and “Single Point Failures on High
     Efficiency Power Supply (HEPS) Card.” In addition, risks are included in monthly status
     reports showing ranking, probability, expected UFE impact by fiscal year, and expected
     schedule impact.

     Project management developed timely and responsive risk mitigation strategies to
     manage and control Project-level risk exposure. For example, MAVEN Project managers
     and the Goddard Center Management Council were closely monitoring a mission-level
     risk entitled “[Mass Spectrometer] Schedule/Cost Performance (medium risk).” MAVEN
     Project management used EVM data to monitor cost and schedule performance for the
     risk. Additionally, the Mass Spectrometer instrument delivery schedule for spacecraft
     assembly, test, and launch operations is reviewed on a monthly basis. The Mass
     Spectrometer schedule erosion risk is proactively mitigated to gain back schedule
     reserves by identifying longer workday and weekend work opportunities; careful scrutiny
     of all remaining tasks and their respective durations by the responsible engineer team
     leaders; and by working with MAVEN and Goddard management to identify areas for
     additional support. The Project also carries a lien of $1.2 million for FY 2012 and
     $400,000 for FY 2013 to mitigate against cost, schedule, and technical risks associated
     with developing the Mass Spectrometer.

     Project Managers Mitigate Single Point Failure Risks. The MAVEN Project contains
     34 single-point failures – components or elements that if a failure occurs, the mission
     fails or is significantly degraded with an adverse impact on Level 1 requirements because
     of that single failure.34 Goddard Technical Standards state that risks must be identified,
     appropriately characterized, managed, and tracked as a means to eliminate single-point
     failures. From a risk management perspective, acceptance of some single-point failures
     34
          A Level 1 requirement is a project’s fundamental and basic set of requirements levied by the Program or
          NASA Headquarters.



18                                                                                        REPORT NO. IG-13-009
RESULTS



  may be prudent, but it is essential to understand the associated risks and receive approval
  from senior management. Managers established the following conformance criteria to
  accept single-point failures in the MAVEN design:35

            Passive parts with technical requirements that exceed minimum project
             specifications;

            Parts used for short flight operational time;

            Impracticality of adding redundancy because of mass, volume, and technical
             constraints.

  Goddard’s Technical Standards state that robust design approaches make the elimination
  of single-point failures desirable. However, when a risk cannot be avoided, projects
  should take steps to understand the impact of the risk. Special mitigation strategies, such
  as design change or additional testing, are employed to reduce risk and approval to accept
  the risk must be received from senior management. In some cases, a design waiver may
  be warranted to accept the risk if the single-point failure cannot be eliminated from the
  MAVEN design.

  The HEPS Card. All but one of the single-point failure risks, the HEPS card, was
  accepted based on the Project’s conformance criteria. The HEPS card – MAVEN’s only
  power system for the spacecraft – is a complex circuit board. Project officials are
  concerned about possible HEPS card malfunctions because of its single-point failures and
  the fact that a single operator, rather than an automated assembly process, is responsible
  for assembly of the card. Failure of the HEPS card during testing could cause significant
  cost and schedule impacts. In addition, a failure during flight could result in permanent
  loss of spacecraft electrical power and mission failure.

  The MAVEN team expects senior management to accept the HEPS card single-point
  failure risk with a waiver of the conformance criteria due to broad analysis, application of
  robust design margins, extensive testing, and the critical need for the HEPS card as part
  of the MAVEN design.

  Mitigation of HEPS Card Risk. MAVEN Project management commissioned Lockheed
  Martin to conduct a study on the impact of a redesign and rebuild of the HEPS card. The
  assessment showed that such a rebuild would involve significant cost, schedule, and
  technical risks. As a result, the MAVEN Risk Management Board decided to accept the


  35
       An accepted risk is defined as a risk that Project management opts to accept on the basis of any of the
       following criteria: (1) The risk has been mitigated to an acceptable level as deemed by Project
       management (implies minimal impact to the Project if the risk conditions occur). (2) The risk cannot be
       further mitigated without undue impact to cost, schedule, or technical performance. (3) The risk lies
       outside of Project control. (4) No further mitigation options are available for the risk. Note: An
       accepted risk may be any type of risk, but in all cases, continued efforts to mitigate are not deemed
       practical.



REPORT NO. IG-13-009                                                                                             19
                                                                                                                RESULTS



     risk of using the card as designed and to mitigate that risk by employing a number of
     additional measures.

     One of the risk mitigation strategies employed by the MAVEN team was to conduct
     numerous tests to ensure that the HEPS card functions properly. In addition, a spare
     HEPS card was transferred from NASA’s Juno Project to the MAVEN Project in the
     event that the primary MAVEN HEPS card failed during testing. Rigorous inspections
     and testing are also being performed on this secondary HEPS card to ensure that it is
     ready for use should the primary HEPS card fail. Although the mitigation measures did
     not eliminate the single-point failure, they did provide some protection against residual
     risk for on-orbit failure.36

     Further, Project management completed testing of the secondary flight card and plans
     additional testing of the HEPS primary card and management plans to continuously
     monitor the HEPS card risk through completion of the spacecraft environmental testing.
     The Project’s Risk Management Board will subsequently revisit the risk for closure and
     acceptance. Moreover, the fact that NASA successfully used the HEPS card design on a
     previous Mars mission illustrates why this single-point failure may justify a waiver to
     accept the risk since the potential failure cannot be eliminated and the HEPS card is a
     critical component of the overall MAVEN design.


MAVEN is Well-Positioned to Address Remaining Risks

     The Project is currently carrying a higher level of cost and schedule reserves in the final
     design and fabrication phase of project development than is normally required by
     Goddard standards. MAVEN Project management has been able to maintain this reserve
     due to cost underruns that were achieved early in the Project’s life cycle. For example,
     the Mass Spectrometer Team has identified longer workday and weekend work
     opportunities to gain back schedule reserves using funds from the earlier cost underrun,
     avoiding the need to use UFE funds to address schedule delays.

     One of the primary risks to any Mars mission is the limited launch window. Due to
     planetary alignment, a mission to Mars has an optimal launch window that occurs only
     once every 26 months. To mitigate the risk associated with missing MAVEN’s launch
     window and the associated costs related to such a significant schedule delay, the Project
     manager identified contingency launch days beyond the 20-day launch period
     (November 18 through December 7, 2013), which increases the launch opportunity to

     36
          Residual risk is any accepted risk with the capacity to affect the Mission’s ability to meet Level 1
          Requirements (full mission success criteria). Residual risks may include: (1) Risks produced by one-
          time events. (2) Risks imposed by critical maneuvers. (3) Any technical risk accepted on the basis that
          mitigation options are not viable or are outside MAVEN control. (4) Unknown risks, those risks that
          exist in all situations, but are not quantified or tracked. A residual risk must always be an accepted risk
          and one that cannot be further mitigated without undue impact to cost, schedule, or technical
          performance. At launch, the overall level of residual risk for the MAVEN mission must fall within the
          level specified for Class B missions by NPR 8705.4 Risk Classification for NASA Payloads.



20                                                                                            REPORT NO. IG-13-009
RESULTS



  December 25, 2013. In addition, officials at the Kennedy Space Center contracted with
  United Launch Alliance to analyze the cost impact of the extra days and developed
  trajectory data should the launch date slip beyond the primary 20-day period. MAVEN
  Project management has appropriately incorporated a risk in the risk management
  database system and accordingly recorded the potential use of $2.5 million of
  contingency funding for a launch date slip to a date within the extended launch period.

  MAVEN Project managers have not developed a contingency plan for missing the entire
  launch period and having to stand down for 26 months until Mars and Earth are once
  again in their optimum positions for another launch attempt. Management identified and
  carried the risk of missing the launch window early in the Project’s development.
  Accordingly, Project management developed a risk mitigation plan that included enough
  schedule margin to accommodate late instrument delivery without impacting overall
  schedule and establishing incentive milestones in the contract structure to complete key
  milestones early. In addition, critical path instruments were allotted additional schedule
  reserve.37 According to Project managers, the JCL analysis, and SRB assessments, the
  likelihood of missing the 2013 launch period entirely has a low probability of occurring.
  As a result of these mitigation strategies and the overall concurrence that the risk has a
  low probability of occurring, the risk was accepted and closed in October of 2010.

  One of the mitigation strategies that Project management formulated to avoid missing the
  launch period was development of a descope plan with decision gates on the master
  schedule and a mission concept that provides flexibility to launch without any one of the
  three instruments while still meeting Level 1 science requirements. In addition, UFE
  funds and schedule margins are available as a result of effective project management,
  proactive management of contract cost negotiations, and steady funding throughout the
  Project’s life cycle. Against its cost to complete development estimate, MAVEN Project
  management has consistently maintained UFE above Goddard standards.38 Furthermore,
  management created incentive milestones in the contract schedule to complete milestones
  early and developed an integrated schedule with schedule margin and schedule reserves
  across all hardware elements comparable to previously successful missions.
  Cumulatively, MAVEN managers employed these strategies to prevent MAVEN from
  missing the launch window.

  As of December 2012, the MAVEN Project was moving toward its systems integration
  and testing phase. Integration of project components and subsystems requires assembly
  of hardware and software elements into operational assemblies or systems. Due to the
  complexity of space systems, integration and testing may produce unexpected results that
  37
       Instruments determined to be on the critical path must be completed on schedule to avoid a delay in the
       overall project schedule.
  38
       Goddard Procedural Requirements 7120.7, “Schedule Margins and Budget Reserves to be Used In
       Planning Flight Projects and In Tracking Their Performance,” May 4, 2008. For example, at the start of
       Phase B in October 2009, management had 30.9 percent budget reserves compared to the 30 percent
       goal. In March of 2012, during Phase C, management had 31.7 percent in reserve compared to the
       25 percent goal. As of November 2012, management was maintaining approximately 32 percent budget
       reserve compared to the 25 percent goal, and 2.6 months of schedule margin.



REPORT NO. IG-13-009                                                                                             21
                                                                                          RESULTS



     will require further analysis, testing, or design changes. For example, the process of
     adding magnetic shielding to the altitude control system thruster brackets may result in
     additional modeling, model validation, and additional testing. Although risks remain to
     MAVEN’s cost, schedule, and technical performance, in our judgment project reserves
     remain adequate to mitigate against most unforeseen expenses and events.


Conclusion

     Project management’s experienced leadership team, use of heritage technologies,
     implementation of sound project management practices (including the use of JCL),
     innovative contract management practices, and aggressive risk mitigation strategies have
     enabled MAVEN to overcome common NASA project management challenges and
     minimize cost increases and schedule delays. While risks remain as the Project
     transitions into testing and integration, management has placed the Project on a solid path
     to achieving its cost, schedule, and performance goals.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     Although we did not offer any recommendations to the MAVEN Project team, in a draft
     of this report we encouraged the Associate Administrators for NASA’s Mission
     Directorates and the Chief Engineer to analyze MAVEN’s project management
     successes, identify what tools have helped minimize common project development issues,
     and apply these lessons to other NASA development projects.

     The Associate Administrator for the Science Mission Directorate agreed and stated that
     post-launch the Directorate would work with the Chief Engineer to capture lessons
     learned and disseminate them using NASA’s knowledge sharing tools, including
     inclusion in the lessons-learned database, publication in the NASA Engineering Network
     communities, inclusion in an ASK Magazine article, and as a case study conducted by the
     Agency Chief Knowledge Officer. He also stated that following those activities, the
     Directorate will use one of its monthly Program Executive Forums to share lessons
     learned with other projects. Management’s full response is reprinted in Appendix B.




22                                                                          REPORT NO. IG-13-009
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from March 2012 through January 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We obtained and reviewed NPD 7120.4D, “NASA Engineering and Program/Project
  Management Policy;” NPR 7120.5E, “NASA Space Flight Program and Project
  Management Requirements;” and NPR 8000.4, “Agency Risk Management Procedural
  Requirements.” We performed our fieldwork at Goddard Space Flight Center. We
  interviewed Goddard MAVEN Project personnel to identify issues relevant to our audit.

  Use of Computer-Processed Data. To meet our audit objectives, we relied on data
  obtained from the MAVEN Risk Management Database. To assess the reliability of the
  data, we reviewed and evaluated all the risks recorded in the database for compliance
  with NASA and Project requirements. Based on our professional judgment we selected a
  sample of those risks and directed specific questions to the Project manager to
  corroborate the information recorded in the database. We conducted an interview with
  the Project’s reliability engineer to determine if each of the single-point failure risks
  entered into the database were adequately managed and to corroborate what was stated in
  the risk management database regarding those specific risks. We obtained information
  via questionnaires directed to the Project manager and the mission system engineer to
  determine adequacy of controls over the Project’s CRM process. We conducted an
  interview with and obtained documentation from the Chief of Mission and Safety
  Assurance at Goddard to determine adequacy of controls over the Project’s internally
  generated Problem Reports and Problem Failure Reports. We concluded that the data
  was sufficiently valid and reliable to support our audit conclusions.


Review of Internal Controls

  We reviewed MAVEN Project management’s compliance with spaceflight program and
  project management requirements. We evaluated the Project’s internal monitoring
  controls for compliance with the NPR 7120.5E process. We interviewed Government
  personnel with oversight responsibilities for the NASA policy requirements. We
  determined that the Project has an adequate process-monitoring control.



REPORT NO. IG-13-009                                                                          23
                                                                                     APPENDIX A



Prior Coverage

     During the past 5 years, the NASA OIG issued one report and the Government
     Accountability Office (GAO) issued two reports of particular relevance to the subject of
     this report. Unrestricted NASA and GAO reports can be accessed at http://oig.nasa.gov
     and http://www.gao.gov.

     NASA Office of Inspector General

     “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
     September 27, 2012)

     Government Accountability Office

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-11-239SP, March 3,
     2011)

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-12-207SP, March 1,
     2012)




24                                                                         REPORT NO. IG-13-009
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-009                         25
              APPENDIX B




26   REPORT NO. IG-13-009
APPENDIX C




                                                     REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Associate Administrator for Aeronautics Research
  Associate Administrator for Human Exploration and Operations
  Associate Administrator for Science
  Chief Engineer
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  MAVEN Project Manager

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-13-009                                                                 27
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Tony Lawson, Project Manager
   Keren West, Management Analyst
   Greg Lokey, Management Analyst
   Scott Collins, Auditor




REPORT NO. IG-13-009                                                         29
                                                                                  FEBRUARY 21, 2013
                                                                        REPORT No. IG-13-009




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
